                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: 108010007
                                                                                11             Page 1 of 1



          A complainant1 reported to the NSF-OIG that an individual2 received a Ph.D under false
          pretenses in 1979. We initiated an investigation because the individual who allegedly received
          the bogus Ph.D had received numerous NSF awards between 1979 and present.

          We contacted the institution3 that awarded the questionable Ph.D. The institution determined
          that the individual's Ph.D was valid. The institution reported it will not take any action against
          the individual. The individual's current institution4 accepted the degree-granting institution's
          conclusion about the validity of the degree, and reported that it will not take any action against
          the individual.

          In light of these findings, OIG concludes there is no basis to question the individual's proposals
          and receipt of NSF funds. Accordingly, no M h e r action is warranted and this case is closed.




 NSF OIG Form 2 (1 1/02)
